HHS/OIG-Audit--"Audit of Medicare Contractor's Segmented Pension Cost, Blue Cross and Blue Shield of Maryland, (A-07-93-00692)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Segmented Pension Cost, Blue Cross and
Blue Shield of Maryland," (A-07-93-00692)
December 14, 1993
Complete Text of Report is available in PDF format
(1.05 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of Blue Cross and Blue
Shied of Maryland's (Maryland) implementation of its Medicare contract clause
on pension plan segmentation. Our review showed that Maryland had as of January
1, 1991, understated Medicare pension assets by $1.9 million. Maryland calculated
an asset fraction as of January 1, 1984 rather than as of January 1, 1981. Using
the correct 1981 asset fraction increases the pension assets of the Medicare
segment by $1,394,145 as of 1986. Maryland's update of the Medicare segment
assets from 1986 through 1990 understated the assets of the Medicare segment
by another $539,352. The understatement occurred because Maryland's update (1)
omitted certain cost centers and (2) did not consider participant transfers
into and out of the Medicare segment. We recommended that Maryland increase
the January 1, 1991 assets of the Medicare segment by $1,933,497 ($1,394,145
plus $539,352). We also recommended that Maryland include participant transfers
in Medicare segment updates after 1991. Maryland agreed with our recommendations.